No. 20IN THE

i§upreme Court of the Eutteb i§tateo
ZAVIAN MUNIZE JORDAN,
Petitioner,
v.
UNITED STATES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,294 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 28, 2020.

(1
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

